                                        Department of Defense
                                    Office of the Inspector General


                  Information Release
FOR IMMEDIATE RELEASE                                                  June 16, 2005
Contact: Gary Comerford
Voice: (703) 604-2028
Email: gcomerford@dodig.mil


  DoD IG Concludes Review in Response to the Report of the Congressional Joint
      Inquiry into Intelligence Community Activities Before and After 9/11

         The Office of the Inspector General of the Department of Defense has concluded
its review in response to the Report of the Joint Inquiry of the Senate Select Committee
on Intelligence and the House Permanent Select Committee on Intelligence into
Intelligence Community Activities Before and After the Terrorist Attacks of
September 11, 2001, results of which are contained in a classified report.

        The Joint Inquiry recommended that the Inspectors General of the Central
Intelligence Agency and the Departments of Defense, Justice, and State review the
factual findings and record of the Joint Inquiry to determine whether personnel should be
held accountable for any omission, commission, or failure to meet professional standards
for the identification, prevention, or disruption of terrorist attacks, including those of
September 11, 2001.

        The review focused on the National Security Agency, the only DoD agency cited
by the Joint Inquiry in its factual findings. The review concluded that there was no
evidence of omission, commission, or failure by National Security Agency personnel to
meet professional standards, but the overall effectiveness of the National Security
Agency counterterrorism mission was limited because it was inadequately resourced.

       The review made no recommendations on the assignment of resources because
the National Security Agency received substantial resources for counterterrorism in the
aftermath of September 11, 2001.

       To report suspected fraud, waste, and abuse and other criminal activity
within DoD programs, contact the Defense Hotline toll-free at (800) 424-9098,
e-mail: hotline@dodig.osd.mil/, or visit them on the World Wide Web at
http://www.dodig.osd.mil/hotline/.

                                         - OIG -
